LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 31, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-255: MAHANOY AREA SCHOOL DISTRICT V. B.L. A MINOR, BY AND THROUGH
HER FATHER LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Mary Beth Tinker and John Tinker referenced above contains 6,329 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of March 2021.

